ALBADUQUE,
Appellant.
Versus
CHABAD AT THE
CIVIC CENTER, INC.
Appellee,
N4D20-1690
District Court of Appeal of Florida
Fourth District
Lower Tribunal No. CACE19012751
Opinion filed May 13th, 2021, Final Judgment
Granted on July 29th, 2020
An Appeal from the Circuit Court for Broward
County, Sandra Pearlman, Judge
Alba Duque Pro* Se, for Appellant.
Heidi J. Bassett of Hellmuth & Johnson PLLC for Appellee
JUDGES: Before SPENCER D. LEVINE,

OPINION
Affirmed

A1

I _J

ALBADUQUE,
Petitioner
Versus
CHABAD AT THE
CIVIC CENTER, INC.
Respondent,
N: SC21-801
Supreme Court of Florida
District Court of Appeal of Florida
Fourth District
Lower Tribunal No. CACE1901275
Order filed on May 27th, 2021
An Appeal from the Circuit Court for Broward
County, Spencer D. Levine, Judge
Alba Duque Pro* Se, for Petitioner.
Heidi J. Bassett of Hellmuth & Johnson PLLC for Respondent

Order Denying
Jurisdiction

A2

\

